     The Library of Congress
-

      Office of the Inspector General




                      Office of the Librarian
                              Development Office

               Information Technology Review of the
                    Raiser’s Edge Software Program
                            Review Report No. 2006-IT-302
                                          December 2007
               UNITED STATES GOVERNMENT                        LIBRARY OF CONGRESS
               Memorandum	                                     Office of the Inspector General




TO:            James H. Billington                                          December 20, 2007
               Librarian of Congress

FROM:          Karl W. Schornagel
               Inspector General

SUBJECT:	      Information Technology Review of the Raiser’s Edge Software Program
               Review Report No. 2006-IT-302

This transmits our final report on the Raiser’s Edge Software Program. The Executive Summary
begins on page i, and complete findings and recommendations appear on pages 4 to 7.

The Development Office’s response to our draft report is briefly summarized in the Executive
Summary and in more detail after individual recommendations. Its complete response is included
as an appendix to the report.

Based on the written comments to the draft report, we consider all of the recommendations
resolved. Please provide within 30 calendar days, an action plan addressing implementation of the
recommendations, including implementation dates, in accordance with LCR 211-6, Section 11.A.

We appreciate the cooperation and courtesies extended by the Development Office staff during the
review.




cc:    Chief Operating Officer
REVIEW REPORT NO. 2006-IT-302	                                                                                              December 2007


 TABLE OF CONTENTS
                Executive Summary ............................................................................................. i

                Introduction...........................................................................................................1

                Objectives, Scope, and Methodology.................................................................3

                Findings And Recommendations.......................................................................4

                     I.	                                                                    .............................................4

                          Recommendations....................................................................................5

                          Management Response............................................................................5

                     II.	 Certification and Accreditation is Required for Raiser’s Edge ..........5

                          Recommendation .....................................................................................6

                          Management Response............................................................................6

                     III. Reviews of the Server Logs Are Needed ..............................................6

                          Recommendation .....................................................................................7

                          Management Response and OIG Comments .......................................7

                Conclusion .............................................................................................................8

                Appendix: Management Response ....................................................................9





         THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-IT-302 	                                                  December 2007


EXECUTIVE SUMMARY
                            The Development Office of the Library of Congress was
                            established under the leadership of the present Librarian in
                            1987. Through the office, the Library seeks support from
                            individuals, corporations and foundations that wish to play a
                            key role in sharing, cultivating and celebrating knowledge and
                            creativity. Library fundraising focuses on support for special
                            acquisitions, preservation of Library collections, cultural and
                            educational outreach programs, and various other projects
                            and activities. Private donations to the Library have totaled
                            approximately $307 million since the Development Office was
                            established. The office uses Raiser’s Edge, a commercial
                            software product, as a tool for managing fundraising
                            activities, including tracking receipts and managing special
                            event information.
                            This report provides the results of our assessment of the
                            application controls the Library uses in the operation of
                            Raiser’s Edge. We sought to determine whether the controls
                            applied are commensurate with the level of protection
                            required for the system’s information and whether the system
                            is operated according to Library of Congress Regulation (LCR)
                            1620, Information Technology Security Policy of the Library of
                            Congress and applicable Information Technology Security
                            Directives. We concluded that the level of controls applied in
                            the operation of Raiser’s Edge appropriately corresponds to
                            the level of protection required for the data the system
                            processes. However, we identified actions that should be
                            taken to enhance the protection of system information.
                            Specifically, we recommend that:
                                  •




                                  •	 the Raiser’s Edge system undergo the Certification and
                                     Accreditation evaluation required by LCR 1620 as soon
                                     as possible; and
                                  •	 system managers regularly review Raiser’s Edge’s data
                                     to identify errors or data that is being inappropriately
                                     used.

                            Management generally agreed with our findings and
                            recommendations.


                         THE LIBRARY OF CONGRESS • Office of the Inspector General               i
REVIEW REPORT NO. 2006-IT-302                                                              December 2007


INTRODUCTION

                           This report is the first in a series of Office of the Inspector
                           General (OIG) reviews of various Library applications and
                           systems. These reviews will focus on the effectiveness of
                           management, operational, and technical controls that apply to
                           a system’s operation.

                           Criteria guiding OIG’s reviews include the Federal
                           Information Security Management Act (FISMA), Office of
                           Management and Budget (OMB) Circular A-130, the Library’s
                           Information Technology (IT) Security Policy, Information
                           Technology Services (ITS) Security Directives, National
                           Institute of Standards and Technology (NIST) Special
                           Publications, Federal Information Processing Standards (FIPS),
                           and best practices of the IT industry. Although the Library is
                           not required by statute to follow some of these criteria, they
                           represent best practices in the operation of an IT security
                           program, and the Library has adopted many of them.

                           The Library acquired Raiser’s Edge in 1998 for $13,670. The
                           annual fee for the associated maintenance agreement is
                           currently $26,624, which includes licenses for 40 concurrent
                           users.




                           Raiser’s Edge includes several modules to track fundraising
                           donations, gifts, and events. The application also provides
                           reports regarding administrative and managerial activities.

                           Although the application has web capabilities, the Library
                           does not use those features. Raiser’s Edge has no automated
                           interfaces with other automated Library systems for
                           exchanging data or information.


                           _____________________
                           1Version 7.82, due at the end of 2007, will be available to the Library under
                           the agreement.
                                                                                              .




                        THE LIBRARY OF CONGRESS • Office of the Inspector General                          1
    REVIEW REPORT NO. 2006-IT-302                                    December 2007

    Data is generally entered into Raiser’s Edge manually and
    transferring data from Raiser’s Edge to other programs is
    likewise, a manual effort. There is currently no remote access
    to the application from outside the Library.




2   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-IT-302                                                 December 2007


OBJECTIVES, SCOPE, AND METHODOLOGY
                           The objectives of this review were to review the input,
                           processing, and output functions of Raiser’s Edge to ensure
                           that: (1) only complete, accurate, and valid data are entered
                           and updated to the computer system, (2) processing of
                           constituent gift, campaign, fund, and appeals information by
                           the application is accurate, (3) processing efficiency meets
                           management expectations, and (4) the integrity and
                           confidentiality of data are maintained.

                           We tested applicable system controls to assess whether they
                           were functioning effectively. We also evaluated the control
                           environment to determine whether control objectives had been
                           achieved.

                           During the course of our assessment, we:

                           •       developed a thorough understanding of the control
                           environment by reviewing applicable policies and procedures
                           of the Development Office and the Raiser's Edge software
                           application system;

                           •      reviewed systems documentation for the Raiser's Edge
                           application;

                           •      interviewed key personnel involved with the input,
                           processing, and output of the software application system; and

                           •      reviewed relevant Library of Congress Regulations
                           (LCRs), Code of Federal Regulations, and publications issued
                           by the National Institute of Standards and Technology (NIST).

                           We performed our fieldwork from June 2006 through
                           February 2007 and from July 2007 through August 2007. Our
                           work was interrupted due to staff turnover and other, higher
                           priority projects.

                           We conducted our review in accordance with Generally
                           Accepted Government Auditing Standards issued by the
                           Comptroller General of the United States (the “Yellow Book”),
                           2003 edition, and LCR 211-6, Functions, Authority, and
                           Responsibility of the Inspector General.



                        THE LIBRARY OF CONGRESS • Office of the Inspector General             3
    REVIEW REPORT NO. 2006-IT-302                                      December 2007


    FINDINGS AND RECOMMENDATIONS
    We concluded that the overall level of controls applied in the
    operation of Raiser’s Edge appropriately correspond to the
    risks of protecting the system’s data. However, weaknesses in
    the application of some controls should be addressed to
    provide greater security for the system’s information.
    Significant areas requiring attention include:

       •
       •   system certification and accreditation; and
       •   system capabilities to assist data monitoring activities.

    The following sections provide our assessments of these issues
    and include three recommendations to strengthen the system’s
    security.
        I. Automated




    Among other things,




4   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-IT-302 	                                                 December 2007




                            Recommendations

                            We recommend that:

                            a.	 the Development Office document




                            Management Response




                               II.	 Certification and Accreditation 

                                    is Required for Raiser’s Edge 

                            A certification and accreditation (C&A) evaluation has not
                            been performed on the Raiser’s Edge system as required by
                            the Library’s IT security policy, LCR 1620. However, the
                            system is scheduled for such an evaluation at the end of this
                            year.

                            Under the IT policy, all Library service and infrastructure
                            units are responsible for the C&A of all IT systems under their
                            operational control every three years. The certification process
                            identifies weaknesses in operating the application, system, or
                            facility and evaluates the potential vulnerabilities of these
                            weaknesses. Accreditation is the formal declaration by the
                            Designated Approving Authority (DAA) that an automated
                            information application, system, or facility is approved to
                            operate in a particular security mode using a prescribed set of
                            safeguards. Accreditation is a business decision balancing the
                            costs of the level of safeguards and the level of need for
                            confidentiality, availability, and integrity of the information.




                         THE LIBRARY OF CONGRESS • Office of the Inspector General              5
    REVIEW REPORT NO. 2006-IT-302                                        December 2007

    The C&A process ensures that the responsible manager with
    oversight on the system has a clear picture of the risk involved
    with that system, and the mitigation that can be employed to
    minimize the risk to the system, the organization, and the
    government agency.

    The Office of the Inspector General interviewed the system
    owner and performed an initial system characterization and
    risk assessment of the Raiser’s Edge system. Based on the
    assessment, we concluded that the security threat for the
    system was moderate. However, the risk assessment was not
    performed at the level of detail normally involved with a
    standard C&A evaluation. Such a standard evaluation of
    Raiser’s Edge may reveal system weaknesses that are not
    identified in this report. We note that the Library has used the
    application since 1998 without incident.

    Recommendation

    We recommend that the Director of the Development Office
    ensure that the Raiser’s Edge system undergo the Certification
    and Accreditation evaluation required by LCR 1620 as soon as
    possible.

    Management Response

    None
      III. Reviews of the Server Logs Are Needed
    The system’s managers do not review Raiser’s Edge system
    transaction logs for suspect data events to identify data that is
    being inappropriately accessed. This monitoring procedure is
    not performed primarily because the system does not make
    data conveniently available in logs for management review.
    As a result, the reliability of the system’s data is questionable.

    It is common industry practice for management to review data
    captured in system logs to ensure the integrity of a system.
    Moreover, the ability to generate reports or logs is built into
    the majority of modern applications. However, in Raiser’s
    Edge’s case, this capability is not available at the application
    level.

    Nevertheless, it is still possible for the system’s managers to
    review some of Raiser’s Edge data. Because Raiser’s Edge


6   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-IT-302                                                 December 2007

                           resides on a Microsoft Structured Query Language (SQL)
                           server, system managers could review the system’s data that
                           resides in the transaction log built into the SQL server. SQL
                           server utilities, including Lumigent Log Explorer and Audit
                           DB, could assist system managers identify changed records
                           and target suspect data events.

                           Recommendation

                           We recommend that system managers for Raiser’s Edge
                           regularly review the system’s transaction logs for suspect data
                           events to identify data that is being inappropriately accessed.

                           Management Response and OIG Comments

                           Management wished to clarify that the application data
                           entered into the system was being reviewed daily. We
                           acknowledge this fact; however, we reiterate our finding that
                           system data events should be reviewed on a regular basis.




                        THE LIBRARY OF CONGRESS • Office of the Inspector General             7
    REVIEW REPORT NO. 2006-IT-302                                      December 2007


    CONCLUSION
    This review of the controls applied in the operation of Raiser’s
    Edge is one in a series of OIG reviews of various Library
    systems. These reviews are designed to assist Library
    management by focusing on the effectiveness of management,
    operational, and technical controls that apply to a system’s
    operation.

    We concluded that the level of controls established for Raiser’s
    Edge’s operation are commensurate with the level of
    protection required for the information the system processes.
    Moreover, staff responsible for entering, maintaining, and
    protecting system data have a good understanding of the
    system’s procedures and responsibly ensure those procedures
    are properly implemented.

    However, we also concluded that weaknesses in the
    application of some controls should be addressed to provide
    greater security for the system’s information. This report
    provides recommendations to address significant weaknesses
    that we identified. Most importantly, we recommended that
    Raiser’s Edge undergo a standard C & A evaluation as soon as
    possible to confirm that the system’s safeguards provide the
    level of security needed to adequately protect the system’s
    information.




    Major Contributors to This Report

    Nicholas G. Christopher, Assistant Inspector General for Audits
    John Kane, Senior Auditor
    Lawrence Olmsted, Information Technology Specialist


8   THE LIBRARY OF CONGRESS • Office of the Inspector General
REVIEW REPORT NO. 2006-IT-302 	                                                                    December 2007


APPENDIX: MANAGEMENT RESPONSE




  United States Government

  Memorandum
  _______________________________________________________________________________
                                                      December 7, 2007

  To:             	 Lawrence D. Olmsted
                    Information Technology Officer
                    Office of the Inspector General

  From:            Larry D. Stafford
                   Director of Special Programs


  Subj:          Response to Raiser=s Edge Audit Report

  In reference to finding 3, Review of Server Logs, management did not agree with the wording that
  implied that the system=s manager did not review data to identify errors or that the data is being
  inappropriately accessed. Management wants to confirm that the data is reviewed daily and felt that this
  finding should be re-worded to better reflect this as a system data review as opposed to an application
  data review.

  In reference to finding 1, management agrees that                                       but that the
  software version numbers were incorrectly stated in the report.




                                      THE LIBRARY OF CONGRESS • Office of the Inspector General                    9
